<html>
<title> - S. 1867--A BILL TO ESTABLISH THE NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE UNITED STATES</title>
<body><pre>[Senate Hearing 107-379]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-379

   S. 1867--A BILL TO ESTABLISH THE NATIONAL COMMISSION ON TERRORIST 
                     ATTACKS UPON THE UNITED STATES

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on

                                S. 1867

  TO ESTABLISH THE NATIONAL COMMISSION ON TERRORIST ATTACKS UPON THE 
                 UNITED STATES, AND FOR OTHER PURPOSES

                               __________

                            FEBRUARY 7, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs


78-617              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                        Kevin J. Landy, Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
          Jayson P. Roehl, Minority Professional Staff Member
         Morgan P. Muchnick, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Stevens..............................................     2
    Senator Torricelli...........................................    11
Prepared statement:
    Senator Bunning..............................................    25

                               WITNESSES
                       Thursday, February 7, 2002

Hon. Dave McCurdy, President, Electronic Industries Alliance, and 
  Commissioner, Commission to Assess the Organization of the 
  Federal Government to Combat the Proliferation of Weapons of 
  Mass Destruction...............................................     3
Norman R. Augustine, Chairman of the Executive Committee, 
  Lockheed Martin Corporation and Commissioner, U.S. Commission 
  on National Security...........................................     5
Richard K. Betts, Director, Institute of War and Peace Studies, 
  Columbia University and Commissioner, National Commission on 
  Terrorism......................................................     7
Maurice Sonnenberg, Senior International Advisor, Bear, Stearns 
  and Co., Inc. and Manatt, Phelps and Phillips, L.L.P. and 
  former Vice Chair, National Commission on Terrorism............     9

                     Alphabetical List of Witnesses

Augustine, Norman R.:
    Testimony....................................................     5
    Prepared statement...........................................    32
Betts, Richard K.:
    Testimony....................................................     7
    Prepared statement...........................................    37
McCurdy, Hon. Dave:
    Testimony....................................................     3
    Prepared statement with an attachment........................    26
Sonnenberg, Maurice:
    Testimony....................................................     9
    Prepared statement...........................................    43

                                Appendix

James Schlesinger, prepared statement with attached article 
  entitled ``A Test by Terrorism''...............................    46
Copy of bill of S. 1867..........................................    56

 
   S. 1867--A BILL TO ESTABLISH THE NATIONAL COMMISSION ON TERRORIST 
                     ATTACKS UPON THE UNITED STATES

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:45 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Torricelli, and Stevens.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. The hearing will come to order.
    Today we are going to be considering legislation that 
Senator John McCain and I have introduced to establish an 
independent commission to examine and report on the facts and 
causes relating to the terrorist attacks of September 11, 2001.
    As you probably know, Senator McCain has minor surgery this 
week and that is why he is not here, because otherwise he would 
be here testifying.
    We introduced the legislation late last year because we 
felt that it was important to get the truth about how those 
attacks could have happened and whether there was anything the 
Federal Government might have done to prevent them. An 
independent and impartial commission, composed of knowledgeable 
citizens, we concluded was the best way to learn the lessons of 
September 11, so that we in Congress, together with the 
President and those serving with him in the Executive Branch 
have the information we need to make the best choices about 
protecting the future of the American people here at home. That 
is future security we are talking about.
    Our proposal would create a National Commission on 
Terrorist Attacks Upon the United States that will be charged 
with constructing a full picture of the circumstances 
surrounding the attacks, including the Federal Government's 
preparedness and response. The commission would also be charged 
with formulating recommendations for ways to strengthen our 
defenses against future terrorist attacks.
    Rarely in our history have events left scars on our 
national psyche as deep as those left in the aftermath of 
September 11, when more than 3,000 Americans were killed. The 
attack on Pearl Harbor was clearly one of those events, and it 
was followed by an independent investigative commission and, in 
fact, Congressional investigations.
    There have been many more recent commissions for serious, 
though less cataclysmic national security crises. Our military, 
for example, has investigated major terrorist actions in the 
past, as it did after the bombing of the U.S.S. Cole, in order 
to learn lessons that might prevent future tragedies. And that 
is exactly what we have in mind here, on a larger scale.
    The most obvious question we have, of course, is how the 
terrorist plot succeeded despite the vast intelligence 
capabilities of our Nation. But we also ought to look into 
possible systemic deficiencies in other areas of our national 
security structure, including our counterterrorism 
capabilities, for example, our immigration and border control 
systems, our diplomacy, and our diplomatic activities.
    The best way to achieve the unvarnished truth is to allow 
those who know the most about the array of subjects that must 
be explored to deliberate in an atmosphere free of politics.
    Senator McCain and I have tried to create those optimum 
conditions with this commission. The initial months after 
September 11 were understandably and appropriately preoccupied 
with mourning and healing and then the aggressive and, 
thankfully, successful prosecution of the war in Afghanistan.
    But now that the Taliban has been removed from power and 
the reconstruction of Afghanistan is underway, we can and 
should begin to pursue in earnest the process of finding 
answers to our questions. Determining the causes and 
circumstances of the terrorist attacks will ensure that those 
who lost their lives on this second American day of infamy will 
not have died in vain.
    The commission we propose would, in that sense, pay tribute 
to the victims of September 11 but also would convey to their 
survivors and all Americans the message that their government 
is doing everything within its power to protect their future.
    We are very fortunate to have with us this morning four 
witnesses who have served on commissions that assessed the 
growing threat of terrorism and who therefore have expertise 
particularly relevant to the work of a national commission 
looking into September 11. I look forward to their testimony.
    Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you very much. I am sorry to say I 
have another meeting in just about 20 minutes, but I am very 
interested in this. I support the concept, Mr. Chairman, but I 
am not sure it is timely yet. I think this event was just so 
staggering on our national psyche that we may want to wait a 
little while before we create a commission like this. But I 
will be pleased to hear some of these statements, and I thank 
you very much.
    Chairman Lieberman. Thank you very much, Senator Stevens, 
for your support of the concept and I look forward to working 
with you on the timing. I think this is all about beginning a 
process that will take at least several months to go forward.
    I am going to down the table of distinguished witnesses and 
start with the Hon. Dave McCurdy, who is before us today as 
President of the Electronic Industries Alliance, and has served 
as a Commissioner on the Commission to Assess the Organization 
of the Federal Government to Combat the Proliferation of 
Weapons of Mass Destruction. Dave, thanks for being with us.

   TESTIMONY OF HON. DAVE McCURDY,\1\ PRESIDENT, ELECTRONIC 
INDUSTRIES ALLIANCE, COMMISSIONER AND COMMISSION TO ASSESS THE 
     ORGANIZATION OF THE FEDERAL GOVERNMENT TO COMBAT THE 
          PROLIFERATION OF WEAPONS OF MASS DESTRUCTION

    Mr. McCurdy. Thank you, Mr. Chairman. It is always a 
pleasure to be with you and Senator Stevens, as well. And 
always good to be with my friends and colleagues on this side 
of the table, as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. McCurdy with an attachment 
appears in the Appendix on page 26.
---------------------------------------------------------------------------
    I assume you are starting on this side because I have more 
gray hair, but Dick and I may compete for the quality of the 
gray hair, but it is an honor to be here.
    Chairman Lieberman. You have become one of our gray 
eminences very early.
    Mr. McCurdy. It is amazing what will happen.
    The commission proposed in your bill is charged with one of 
the most serious and significant tasks in our Nation's history. 
In the aftermath of the September 11 attacks, the United States 
is united in its resolve to take the war to the terrorist 
organizations, as well as the countries who harbor and support 
them. But not since World War II has the country rallied and 
come together to face a common enemy, albeit an amorphous and 
insidious variety.
    Mr. Chairman, the most fundamental role and responsibility 
of the government and Congress is to provide for our common 
defense. And I add my commendation to President Bush, the 
administration, and Congress for their remarkable leadership 
and crisis management we have witnessed since the September 11 
attacks.
    And I share Senator Stevens note of caution that, even 
though we have completed the first phase of this war by 
eliminating the Taliban and al Qaeda hold on Afghanistan, there 
is still much to be done to successfully prosecute the campaign 
against terrorism. It is imperative that nothing interferes 
with or impedes the prosecution of the war or efforts to 
bolster the defense of our homeland.
    Nevertheless, the requirements of this ongoing war must be 
balanced with the right of Americans to know why our 
intelligence, defense and law enforcement agencies were unable 
to prevent the attacks. Without question, now is not the time 
to point fingers or to look for scapegoats, but we must 
understand the causes, identify the weaknesses, and correct the 
lapses that allowed this catastrophe to occur.
    The American people deserve a forthright and complete 
accounting of the circumstances of that day. Above all, we must 
do all we can to ensure that such attack never occurs again.
    I know that the Chairman and the Senator know that when the 
National Security Act of 1947 actually was written, it was to 
ensure that we never had or suffered another Pearl Harbor type 
of attack. And I think that is the principle that we need to 
keep in mind.
    There are five Senate and five House committees that have 
jurisdiction and authority to conduct investigations and to 
review what happened. Arguably, there are even more, including 
this one. I certainly have the highest confidence in the 
leadership of these respective committees, particularly my 
former colleagues and current chairman, of the Intelligence 
Committee and Armed Services Committee, who I worked with on a 
daily basis.
    However, in my opinion, a commission has the advantage of 
being independent, singularly focused, and able to work outside 
the glare of the media. For these reasons, I support forming 
the commission to investigate the terrorist attacks upon the 
United States.
    In my experience, commissions work because they are not 
constrained by arbitrary jurisdiction or turf wars and 
politics, and thus have the ability to step back and take a 
more holistic view. In this instance, a commission can 
objectively collect facts, evaluate the evidence, and review 
the mission and effectiveness of the Federal, State, local and 
private organizations charged with our safety.
    Commissions are valuable because they are generally non-
partisan and when effectively chaired seek consensus based 
recommendations and solutions. Operating an effective 
commission on the September 11 attacks will not be an easy 
task, but there already has been much valuable forensic work 
performed by the intelligence community, law enforcement, and 
the media to build upon.
    Based upon my experience with Congressional committees, 
presidential and Congressional commissions, war games, as well 
as my private sector experience in the technology industry, I 
believe there are numerous questions that this commission must 
investigate. It is especially important not to have any 
preconceived notions. And in this case, there are still many 
more questions than answers.
    These questions include but are certainly not limited to 
the following: Is there a clear chain of command and authority? 
What are the organizational impediments to effective 
collection, analysis and dissemination of intelligence and 
information? Is technology being used to its fullest potential 
to provide effective information management? What indications 
and warning mechanisms were in place? How effective are they? 
What is the role of government versus private organizations? 
The list can go on, and I detailed more in my written 
statement.
    A priority for this commission must be to complement rather 
than compete with the efforts of Congress. Similarly, 
cooperation with the relevant Executive Branch agencies will be 
essential. I am confident that these issues can be worked 
through. Indeed, both Congress and the administration deserve 
enormous credit for the actions already being taken, such as 
the establishment of the Homeland Security office to improve 
coordination, the Patriot Act, and the Airline Security 
legislation.
    In addition, the President's budget proposal clearly makes 
homeland security a top priority. Still, this commission could 
serve a valuable role in looking at these additional measures 
and identifying areas that may need greater attention.
    I am also confident that the failures that resulted in the 
terrorist strike will be revealed and addressed, but this 
outcome is not automatic. Bureaucracies have a natural tendency 
to fight the last war rather than the next one. A commission 
can be particularly helpful in taking a comprehensive view of 
the events of September 11 and fashioning recommendations that 
mitigate this tendency.
    Mr. Chairman, Charles Darwin observed that it is not the 
strongest nor the most intelligent that survive, but the ones 
most responsive to change. The September 11 attacks were 
brilliantly evil, they were entirely outside the box of what we 
thought likely, and now it is our turn to adapt.
    To win this war, government must change how it thinks and 
acts, and do a much better job of coordinating its assets. 
Thank you.
    Chairman Lieberman. Thanks, David, for that very thoughtful 
statement.
    Next is Norman Augustine, Chairman of the Executive 
Committee of Lockheed Martin Corporation, a leader in America's 
corporate and civic life for a good long time now, and also I 
will mention, as part of that, a Commissioner of the U.S. 
Commission on National Security known as the Hart-Rudman 
Commission.
    Thanks so much for being here.

TESTIMONY OF NORMAN R. AUGUSTINE,\1\ CHAIRMAN OF THE EXECUTIVE 
 COMMITTEE, LOCKHEED MARTIN CORPORATION AND COMMISSIONER, U.S. 
                COMMISSION ON NATIONAL SECURITY

    Mr. Augustine. Thank you, Mr. Chairman, and Members of the 
Committee. I particularly appreciate the opportunity to share 
my views on the proposed commission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Augustine appears in the Appendix 
on page 32.
---------------------------------------------------------------------------
    With the Committee's permission, I would like to submit for 
the record a long statement and I will just abstract it now.
    Chairman Lieberman. Fine, we will accept and print that 
longer statement in the record.
    Mr. Augustine. I also probably should emphasize for the 
record that my comments this morning will be entirely my own, 
and I am not representing any of the organizations that I 
happen to be affiliated with.
    It goes without saying that the issues that are addressed 
by S. 1867 are of great importance to the country. It was, as 
you said Mr. Chairman, my privilege to serve on the Hart-Rudman 
Commission for several years. Having done so, it unfortunately 
came as no great surprise to me or, I believe, my colleagues, 
that America was subjected to an attack of the general nature 
that we suffered on September 11.
    I say this not because of any specific evidence of 
impending tragedy, but rather from a derived conclusion, if you 
will, from three basic considerations. The first of these was 
that it has been long evident that there are individuals and 
groups on this planet that have utter contempt for all that 
America stands for and have been very vocal about doing us 
harm.
    The second consideration is that with the end of the Cold 
War, when one views America's military capability it would be 
seemingly futal for such enemies to attack America in a 
conventional fashion on the land, in the air, at sea, or even 
in space.
    That leads to the third consideration, and that is in 
recent decades, we have witnessed a very fundamental change 
that largely has been brought about by the unintended 
consequences of advancements in science and technology. For the 
first time in history, individuals or very small groups can 
very profoundly impact much larger groups in a very adverse 
manner. It is not possible for the former, smaller groups to 
exert control over the larger groups, but they can certainly 
disrupt the stability that is enjoyed by these larger groups.
    So in short, for individuals or groups that are seeking to 
extort or physically harm America, by far the most obvious 
avenue today, and presumably in the future, will be through 
terrorist actions. There are groups that, as we now all know, 
have such capabilities and are seeking further capabilities for 
such actions.
    Clearly, we do have a great deal to learn and we have a 
great deal more to do if we are going to thwart terrorism and 
its consequences. The proposal that has been made to establish 
a commission to learn from the events of September 11 would 
appear to me to be a very logical undertaking. In the final 
assessment, though, I believe that its usefulness will, to a 
very large degree, depend on the quality and the judgment of 
the commissioners and of their staff, those who are involved in 
the endeavor. It will depend greatly on the perspective they 
take as they embark on such an undertaking.
    Specifically, it would seem that there would be little to 
be gained simply by revisiting history for history's sake. In 
fact, doing so might even be divisive.
    It is also important, I believe, that the commission not 
unduly burden those who already carry the heavy burden of 
responding to, preparing for, and hopefully avoiding future 
terrorist acts.
    On the other hand, I believe that if those involved in the 
commission's work are able to take a rather forward looking 
perspective, take a rather broad perspective of lessons 
learned, lessons that could impact our future security, I 
believe that the commission can make a very significant 
contribution. It is apparent, from the wording of the 
legislation and, Mr. Chairman, from the wording of your 
statement, that the drafting of this legislation recognizes 
those considerations that I have just cited.
    I would note one specific matter with regard to the 
proposed legislation. That is, it does not seem to make clear 
how much of the commission's work is to be conducted in full 
public view. Of course, America prides itself on conducting the 
affairs of its government under a spotlight, and that is to our 
credit in general. But at the same time, I can imagine many of 
the topics that the commissioners will be called upon to 
address will be topics to which we would just as soon our 
enemies not be privy.
    I particularly address here those issues that do not truly 
fall under the existing legislation for protecting national 
secrets, but are extremely sensitive in today's world and 
probably deserve some form of protection. It was not clear to 
me from the legislation how that would be dealt with.
    In summary, I would just say that I believe a commission of 
the type that has been proposed can indeed be very beneficial, 
but only if it is conducted in a very sensitive and a very 
responsible fashion. And I would close, as did my colleague, 
David, by noting that we do live in a new world and I would use 
a quote, as he did, Jefferson's reminder that the price of 
liberty is eternal vigilance. This seems to have never been 
more true than it is today.
    Thank you for this opportunity to share my views.
    Chairman Lieberman. Thanks very much, Mr. Augustine, and I 
look forward to having some exchange with you on some of the 
questions that you raised, which are well taken.
    Next we have Professor Richard K. Betts, who is Director of 
the Institute of War and Peace Studies at Columbia University 
and a Commissioner of the National Commission on Terrorism, 
which if I have got my commissions right was the Bremer 
Commission.
    Thanks for being here.

 TESTIMONY OF RICHARD K. BETTS,\1\ DIRECTOR, INSTITUTE OF WAR 
   AND PEACE STUDIES, COLUMBIA UNIVERSITY AND COMMISSIONER, 
                NATIONAL COMMISSION ON TERRORISM

    Mr. Betts. Thank you, Mr. Chairman. In the interest of 
time, I will summarize my longer, prepared statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Betts appears in the Appendix on 
page 37.
---------------------------------------------------------------------------
    My main points are that a national commission would perform 
an important function in coming to grips with the disaster of 
September 11, and such a commission should work best in 
addition to other efforts, such as Congressional 
investigations, not as a substitute for them.
    The organization of the commission in the proposed bill 
seems to make good sense, with one exception. That is that 
there is a tension between the objectives in Section 3(c)(3) 
concerning balanced representation of different professional 
groups, and the procedures for appointment of members of the 
commission set out in Section 3(a).
    In the coming months and years, there will be many rumors 
and half-truths leaking out to explain why the warning process 
failed before September 11, how organizational structures were 
unprepared, and so forth. There is a great need for an official 
post-mortem that brings the full story out in a thorough, 
careful, balanced and non-partisan manner. The main benefit of 
a national commission, I think, would be political credibility, 
to provide a detailed and sober investigation that the public 
could have confidence is as objective as humanly possible.
    There will be many exercises attempting to lay blame and it 
is important to have one serious effort that has high 
credibility in terms of two important criteria: Access to all 
relevant information and disinterest in scoring political 
points. In this matter, something I did not address in my 
statement, I would though like to associate myself with the 
last witness' emphasis on the need to conduct the most 
sensitive aspects of such a commission's work in reliable 
secrecy.
    My view is influenced by my own experience as a member of 
the National Commission on Terrorism established by Congress 3 
years ago. That commission operated in a thoroughly bipartisan 
way. I say that as one of the four members of the commission 
appointed by the Minority Democratic leadership. Although it 
was a commission created by a Republican controlled Congress, 
there was never a hint that our effort involved grinding axes 
to embarrass the Democratic administration.
    It would be unrealistic and undesirable to see a commission 
as the sole official solution to grappling with what happened 
on September 11. Neither presidential nor Congressional 
commissions ever completely settle the questions with which 
they are tasked. Other efforts, particularly Congressional 
investigations, can do things that a commission cannot. On a 
matter as crucial as September 11, some redundancy in 
investigation is not only unavoidable, it is useful.
    Consider the investigations of the intelligence community 
in the mid-1970's. The process began with the Rockefeller 
Commission and expanded to investigations by select committees 
of the House and Senate, and all of these were useful in 
different ways.
    S. 1867 does not have any truly serious deficiencies, in my 
view. My one reservation is about the process for appointing 
members of the commission. Section 3(c) of the bill sets out an 
excellent summary of the qualifications desirable for the 
commissioners to be selected. The current bill's Section 3(a) 
however, sets out a process that disperses appointment 
authority widely. That would seem, to me, to make it hard to 
carefully craft a group as a whole.
    The President would be able to design some balance with his 
four allotted appointees, but the other 10 appointments are 
parcelled out to 10 different committee chairs, or 20 people in 
all, if the consultation with their ranking members is to be 
genuine. To get a good distribution of people from the 
military, diplomacy, business, law enforcement and so forth, it 
seems that the 10 or 20 chairpersons and ranking members or 
their staffs would have to caucus and do some horse trading. 
Otherwise, it appears that we could get a random assortment 
that might not be ideally suited to conducting a full, thorough 
and competent investigation.
    Falling back on my experience with the Terrorism 
Commission, I would suggest considering some greater 
centralization of Congress' share of the appointments. One way 
to do this would be to give the final appointment authority to 
the majority and minority leaders of both houses. The committee 
chairpersons and ranking members could certainly make their 
preferences known and the leadership would be free to select 
many of them.
    To conclude, a national commission, however well it does 
its job, will not bring us to closure in understanding how we 
should best move to prevent another September 11 catastrophe. 
That should not be the test of such a commission. September 11 
was a watershed in national security policy, and figuring out 
and adjusting to the lessons will be a long process.
    The right sort of commission can be a good start. It can 
clear away underbrush, answer some questions, even if not all, 
lay down a valuable set of markers to channel other efforts, 
and discredit fast and loose attempts at easy answers. That 
will leave much to be done, but it will have done a lot.
    Chairman Lieberman. Thanks very much, Professor, again 
helpful testimony.
    It is a pleasure to welcome Maurice Sonnenberg, an old and 
dear friend who also happens to be Senior International Advisor 
to Bear, Stearns and Company, and was Vice Chair on the 
National Commission on Terrorism. Welcome.

   TESTIMONY OF MAURICE SONNENBERG,\1\ SENIOR INTERNATIONAL 
ADVISOR, BEAR, STEARNS AND COMPANY, INC. AND MANATT, PHELPS AND 
  PHILLIPS, L.L.P. FORMER VICE CHAIR, NATIONAL COMMISSION ON 
                           TERRORISM

    Mr. Sonnenberg. Nice to be here. Thank you, Mr. Chairman 
and Senator Torricelli.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sonnenberg appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    I have been asked to testify in the efficacy of the 
creation of a terrorist commission. Having served as Vice 
Chairman of the National Commission on Terrorism and having 
been on the Commission for the Roll and Capabilities of the 
Intelligence Community and the Commission for the Protection 
and Reduction of Government Secrecy, I do come with a point of 
view as to how these might be best structured.
    A panel of this sort is of immeasurable importance in 
helping to better understand what basically were the factors 
that led up to the catastrophe of September 11. It also places 
into context sound bites such as ``a failure of intelligence.'' 
While these are catchy phrases, they are gross generalizations 
designed to convey the impression that it must have been a 
systemic all-encompassing failure on the part of the Agency, 
the Bureau, and others in the intelligence community.
    There may have been weaknesses in the intelligence 
community, but a more comprehensive analysis should also focus 
on the role of several governmental institutions, among them 
the White House, Congress, and the Department of Justice.
    When looking at these matters, the commission must also 
address obviously such matters as impediments to law 
enforcement, immigration, border controls, financing of 
terrorist activities, intelligence sharing, and on and on.
    The commission must obviously be established in a manner 
that supplements but does not replace the need for continued 
Congressional oversight, nor can it be allowed to compromise 
security, both at the National Security Council level and at 
the intelligence community level.
    But what about the specifics of a commission. It must take 
some very talented people and a superior staff to assess 
information available both in open and classified sources. The 
individuals appointed to this commission should bring to the 
task a broad understanding of the subject as a whole, rather 
than overly detailed knowledge of a specific field. It goes 
without saying that everyone associated with this commission 
will require multiple clearances, especially in the instances 
where the investigation hinges on matters related to covert 
operations.
    The commission will require, as we had before, a specific 
location, frankly not known to the public. On all the 
commissions I served on, that was the case.
    Congressionally mandated, our members were appointed, in 
our commission, by the majority and the minority leadership. In 
the other two commissions, the White House participated in the 
appointments.
    As far as I know very few people knew the names of our 
commission members until the report was published. We had never 
had a leak. This I might add was true for the commission on the 
role and capabilities of the U.S. Intelligence community. And 
that comes up to the topic of the security of the commission 
and where they are housed.
    Another reason that I am concerned about is the security in 
terms of the commission and staff members. We have got to check 
with law enforcement and intelligence community. We are now at 
a period after September 11. Do not underestimate the 
possibility that these commissioners could be jeopardized or 
pressured. And therefore, when this commission is set up, the 
idea of some secrecy behind where they meet and who they are, 
to some degree, must be looked at. I would do that in 
consultation with the proper law enforcement authorities.
    Finally, let me say you may wonder why, after all of this, 
would I want this commission? First, I am certain that the 
White House, or some branch of the legislature, is going to set 
one up no matter what happens. Second, a commission of this 
sort will have substantial public consequences. The cynics say 
oh well, all these commission reports wind up on the shelf. 
Frankly, most do. There is, however, a great difference 
regarding this one. It is post-September 11. If well written 
and carefully conceived, it will carry the gravitas and 
influence a study of this nature should have.
    The National Commission on Terrorism and the Hart-Rudman 
Report had some influence in focusing many members of the 
Congress, the media, and the press on the subject. The 
prescience of these reports made them unique and totally 
relevant to the legislation that passed after September 11.
    A commission report on the so-called ``monumental failure 
of intelligence'' can help to inform and educate the public to 
better understand the complexity of these matters. That is not 
to say that a commission would be a fount of wisdom. But it 
might, by its very making, keep the public focused on this 
problem that is not about to end or, for that matter, in our 
lifetime. You can control terrorism but you can never totally 
eliminate it. The sooner the citizenry is fully cognizant of 
this, the less likely it will lose its sense of purpose and 
resolve.
    That being the case, it is imperative that the public 
continue to be supportive of measures necessary to face this 
ongoing threat. The commission can be a valuable tool in this 
effort. Thank you.
    Chairman Lieberman. Thank you very much. It was excellent 
testimony, very constructive.
    I should indicate for the record that Senator Thompson is 
home in Tennessee because, as is known, of the death of his 
daughter last week. He and I spoke yesterday and he is very 
interested in this subject and will be re-engaged with us next 
week.
    I am delighted that Senator Torricelli is here. Senator 
Torricelli has introduced, along with Senator Grassley, 
legislation to create a commission on the same subject. For 
reasons known best to the Senate Parliamentarian, it has been 
referred to the Judiciary Committee, not here. But I wonder, my 
colleague, if you would like to deliver an opening statement at 
this time?

            OPENING STATEMENT OF SENATOR TORRICELLI

    Senator Torricelli. Thank you, Mr. Chairman, very much. I 
enjoyed the testimony and appreciate each of the witnesses 
appearing today. It is very good to see my neighbor from New 
York, Maurice Sonnenberg, here, and my former colleague, Dave 
McCurdy, who by all rights in my personal judgment, should have 
been a member of this institution but that is the way life 
works.
    Chairman Lieberman. Probably did better.
    Mr. McCurdy. It is nice on this side of the table, Senator.
    Senator Torricelli. That is his gain and our loss. Mr. 
Betts, Mr. Augustine, thank you all for being with us today.
    This is a subject about which I have extremely strong 
feelings. While, for some Americans, September 11 will soon 
become part of history, a painful event, but something that 
will take its place along with other tragedies in our 
generation. For those of us who live in New York, New Jersey, 
and Northern Virginia, it is something that is still unfolding 
every day. You cannot visit a community in my State without 
someone knowing a widow or an orphan, a parent. They wake up 
with this tragedy every single day. A loss child, a mortgage 
that cannot get paid, a family whose future has been changed.
    I support this commission because if not for everyone else 
in the Nation, and if not for history, if not for assuring that 
it never happens again, if none of those reasons were valid, 
then we are left simply with this. Those people deserve an 
answer.
    It is my own belief that the American people have 
remarkably low expectations for their government. They live 
their lives, they want as little contact with the government, 
usually, as possible. But at a minimum, they expect the 
government to keep them safe. In their homes from crimes and in 
the world from adversaries. And they trust that is being done.
    It was not done. And there may be many reasons, there may 
be many excuses, there may be many legitimate problems, but it 
did not happen. And somebody has to provide an answer.
    The President has made some remarkable appropriations 
requests for law enforcement, intelligence, and the military, 
historic changes in our level of expenditures that will 
radically change the finances of the U.S. Government. It may be 
the right recommendation. And Democrats and Republicans have 
competed with each other to endorse them more quickly than the 
next. That may be the right decision.
    The simple truth is there is not a member of this Congress, 
and there is no one in the administration, who really knows. 
One cannot build structure of law enforcement or defense 
without understanding whether the foundation is sound.
    These institutions upon which we would now rest our 
security and invest these new funds are the same institutions 
that failed on September 11. I do not say that because the 
institutions should be abandoned or dismantled or discredited, 
simply that we need to understand what failed before we invest 
in them again. That is the purpose of this commission.
    It is regrettable that the commission was not already 
formed. I genuinely believed that President Bush, in the weeks 
after September 11, would form a commission by Executive Order. 
This exercise in the Congress of legislatively creating a 
commission really should not have been necessary.
    Faced with the same decision, Franklin Delano Roosevelt 
created the Commission on Pearl Harbor in 10 days. Faced with 
the national trauma of the Challenger accident, Ronald Reagan 
acted within weeks. Faced with the catastrophe of the 
assassination of President Kennedy and what it implied for the 
security of the Executive Branch and the international 
implications, Lyndon Johnson acted immediately with the Warren 
Commission.
    This has been our history. This should not be the 
exception. In many ways, this is not as large a tragedy as each 
of those. In some respect, it is larger, the death of thousands 
in our greatest city and the capital of our country.
    We are too close to the event and there has been too little 
investigation to know much of what failed on September 11. Let 
me quote from the Los Angeles Times, if I could, ``In the last 
decade, suspected terrorists have repeatedly slipped in and out 
of the United States. They have plotted against America while 
in Federal custody. Key evidence that pointed to operatives and 
their plans was ignored until well after the attacks. The mixed 
signals now haunt a generation of U.S. intelligence and law 
enforcement officials who realize that their efforts to track 
terrorists linked to Osama bin Laden were undermined at times 
by bungled investigations and bureaucratic rivalries.''
    We now know that the FBI has known for at least 3 years 
that two bin Laden operatives trained to be pilots in the 
United States. One of them, a naturalized U.S. citizen from 
Egypt purchased a used military aircraft in Arizona in 1993. 
After he purchased the Saber 40 twin engine passenger jet for 
bin Laden for $210,000, he flew to the Sudan.
    Federal authorities also knew that Ramzi Yousef, who 
planned and carried out the 1993 World Trade Center attacks 
later planned to blow up 12 U.S. jets over the Pacific. One of 
his co-conspirators in the Pacific plot told Philippine police 
that he hoped to hijack a passenger plane and crash it into CIA 
headquarters. He had attended U.S. flight schools. No one took 
this evidence, to contact U.S. flight schools or raise the 
possibility of such a conspiracy.
    I know it appears easy after the attacks for people in my 
position or others to make it look easy. It was not easy. I 
understand it is difficult. Gathering intelligence from 
thousands or hundreds of thousands of sources, collating it, 
analyzing it, understanding it is difficult. Of course it is 
difficult. That is why we have a professional intelligence 
community.
    Maybe analyzing it and coming to the right conclusion was 
difficult. Maybe it was impossible. I do not know. Nobody 
knows. That is why we need a commission.
    It may be that to fight the war on terrorism and also 
undertake this review is difficult. It will involve some of the 
same people and some of the same resources. I suspect that is 
exactly the situation Franklin Delano Roosevelt had after Pearl 
Harbor. And I suspect the admirals of the Pacific raised the 
same objections. He ignored them and rightfully so.
    How could America's mothers and fathers be asked to entrust 
the lives of their sons and daughters to fight a war if they 
did not have confidence in the military hierarchy. How could 
Americans be asked to sacrifice and trust the future of their 
country's security in a military establishment reeling from 
Pearl Harbor if we did not believe in their competence or their 
structure or their command? And so we fought the war and 
undertook the review at the same time.
    No doubt the same arguments about the need for classified 
information were heard after Pearl Harbor and after the Kennedy 
assassination and after the Challenger accident, during the war 
that was being fought in Central America. But in each of those 
instances, each president from Reagan to Roosevelt reached a 
different judgment. We can analyze the problem and protect 
information because we needed to reach a national judgment.
    It may be, as was testified, that all these commissions did 
not succeed. Some did. NASA was saved, the American space 
program redesigned, because a commission did an extraordinary 
job in a difficult moment in history of admitting where we were 
wrong, why lives were lost, because of failures of the 
government. It worked.
    The Pearl Harbor Commission did restore confidence. People 
believed in the military establishment again. And I believe, 
for all the divisiveness of Central America, questions of 
strategic weapons, those commissions also succeeded in 
answering questions of highly classified materials, at a point 
where the Nation was very divided.
    This commission not only makes sense, it makes overwhelming 
sense. It will be painful because it will involve truth that we 
do not want to face, failures of institutions we believe in, 
and of people and friends that we like.
    In the final analysis, there is no choice. We owe this to 
the country. We owe it to the victims. And it is impossible to 
design a national security system to ensure that this never 
happens again without this review. We could not begin to 
appoint officials, redesign our security apparatus, and commit 
billions of dollars of new resources for the future unless we 
understand this failure of the past.
    I am committed to making this happen. It is regrettable, 
for reasons I do not understand, that Senator Grassley and I 
have undertaken different legislation than Senator McCain and 
Senator Lieberman. I hope that is reconciled. The differences 
are narrow but they are real. As was testified here today, in 
our legislation we specifically give appointment authority to 
the majority and minority leaders and the President of the 
United States to assure that those six individuals, balancing 
their interests, can ensure that the commission accurately 
reflects the different parts of the intelligence, military and 
civilian authorities.
    But we also specifically mandate the commission to look at 
the intelligence and law enforcement authorities involved, 
because while this should be a broad look at the failures, 
obviously the responsibility most directly lies there and 
should be addressed.
    I hope by the time this process has run its course that we 
have one bipartisan piece of legislation, but what is most 
important is that this gets done, and done quickly.
    In a democratic government, to have the people of our 
country doubt the ability of those that they have chosen to 
lead to protect them is very troubling. Even to have our 
adversaries believe, when they have exhibited our 
vulnerability, and inflicted us with enormous pain, that we 
have not undertaken a review to fix the problems, continues to 
signal vulnerability.
    For all these reasons I am very grateful that my colleague, 
Senator Lieberman, has called this hearing today. I think he 
has done a great service to the Senate and the country by 
beginning this process. And I am grateful to each of you and 
your participation today. After the Chairman has begun his own 
inquiries, I look forward to a discussion with you.
    Chairman Lieberman. Thank you, Senator Torricelli, for an 
excellent statement. I, too, share your hope that we can 
combine both bills. I think there were two major points of 
difference. One is in the form of the selection of the members, 
as you indicated, of the commission. The other is in the 
statement of jurisdiction because the bill that Senator McCain 
and I have introduced does mention intelligence but goes beyond 
that to other functions of government. I hope we can do that. I 
want to pick up and hope we can get together on a broad 
bipartisan, single approach to this.
    I want to pick up in my first question on something my 
colleague said and begin it this way. Some of those, including 
the White House, who have opposed the creation of such a 
commission, to try to do it justice, have said that their main 
concern is that it would distract those who have 
responsibilities now, both military as Senator Torricelli 
indicated, also I presume in the intelligence community and 
other aspects of our government, from their daily 
responsibilities.
    I must say that I am not convinced by that, both because of 
the historic precedents that my colleague states, the Roberts 
Commission after Pearl Harbor, the Warren Commission after the 
Kennedy assassination, the commission after the Challenger, 
etc.
    And even more to the point of the experience of the 
witnesses, Mr. Augustine, if there had been a major problem of 
Lockheed Martin of some sort where things had not been going as 
you had wanted, and I am sure this never happens, or at one of 
the new economy industries that is part of your association, 
Mr. McCurdy, I am sure that though those people would continue 
to be working on the line, you would jump right in and find out 
what the heck went wrong here so you could stop it from 
happening.
    Anyway, I wanted to ask your reaction to the notion that to 
create a commission of this kind might, in some sense, be 
negative because it would be a distraction for those who are at 
work now in these areas. Mr. Sonnenberg.
    Mr. Sonnenberg. I understand the feeling of the White House 
on this, however a commission of this sort will impinge upon 
some of the time of some of the people who are called up. But 
then, if we look at the role of Congress here, I think it was 
Jim Woolsey who once told me, you know Maurice, I had to go up 
there 104 times. Now that is not going to happen with this 
commission. We have 6 months. There is no way in the world we 
are going to fit someone in those days.
    So my feeling is that, as Senator Torricelli rightfully 
points out, it is absolutely imperative in my mind to have this 
commission, but I do not think there will be an impingement of 
the type that I am hearing about now.
    Chairman Lieberman. Mr. Augustine.
    Mr. Augustine. Yes, Mr. Chairman. I have served on both 
sides of commissions and I think it gets to be a question of 
degree. I think there is no reason that it has to be 
disruptive. But I think it could be disruptive. And it is going 
to depend on the responsibility of the people who are involved.
    I think without question that if properly managed people 
can still do their jobs and respond to a commission of this 
type. In our own company the way we solve these things in a 
case of a major crisis, is we let one group of people worry 
about the ongoing activities and another worry about the crisis 
issues.
    That is not an ideal solution, but I think it is an 
approach that we have to consider. I don't think any of this is 
what, in the vernacular, you would call a show stopper.
    Chairman Lieberman. Either of the other two witnesses want 
to comment?
    Mr. McCurdy. Mr. Chairman, I concur with my colleagues' 
statements. First of all, I want to commend Senator Torricelli 
for his comments. I think they were superb.
    You can always make an argument to defer an investigation 
but quite frankly I concur with both of your sentiments that 
now is the time to at least initiate the study.
    As I said in my written statement, there is an incredible 
amount of forensic evidence that has already been accumulated, 
much of that in the public eye and through the media. So 
there's a lot to build on.
    As far as distraction, I think Mr. Sonnenberg said it well. 
There are such a large number of committees in both the House 
and Senate that have jurisdiction they could be truly 
distracted if they were called before all of those. If there is 
a deferral, I think the Congress should be focused on the 
actions of protecting from here forward, as they have been 
focusing, and allow a commission to take the time to reflect 
and look more holistically at a broader cross-section of 
jurisdiction.
    Part of the challenges, and I do not think any of us are 
prepared to make judgments, but from our experience the issue 
is there is a lot of questions. Was it seamless? Everyone talks 
about creation of fusion centers and this new cooperative 
effort. It is easier in a wartime environment to do that. It is 
in the non-wartime situation that you ask those questions 
whether jurisdictions did cooperate properly. And you want to 
know that there is not a gap in those seams. There are always 
going to be seams, but you try to reduce those as much as 
possible.
    So for those points, I think the commission is timely and 
appropriate.
    One other point is about the political credibility, and I 
think my friend, Mr. Augustine, raised that. I think there is a 
great deal to be gained by that credibility. We cannot, as a 
Nation, afford to have this degenerate into partisan finger 
pointing on one side or the other.
    And also, for those who argue that the internal reviews in 
the organizations themselves have taken place and therefore it 
is corrected, I would just point out there are a lot of 
accounting firms and other groups out there trying to do that 
to restore some credibility. But until it is raised to a higher 
level that has those kind of independent view, I am not sure 
the credibility is there.
    Chairman Lieberman. Yes, sir.
    Mr. Betts. The simple point is that the purpose of this 
commission is to learn something important about what went 
wrong. Presumably, that will help these busy people to do the 
jobs better that we do not want to distract them from unduly.
    Chairman Lieberman. Agreed. Congressman McCurdy, let me ask 
you this, as a former chair of the House Intelligence 
Committee, I am sure you can understand why the Intelligence 
Committees in both chambers are interested in investigating the 
role played by intelligence agencies leading up to September 
11. Nevertheless, you have supported an independent commission 
as a way to complement rather than compete with Congressional 
efforts.
    I wonder if you would expand a bit on that, about the 
different roles that might be played by both here.
    Mr. McCurdy. Clearly, the Intelligence Committees, who are 
chaired by very capable and experienced individuals, have an 
important role to play. I think you saw the commencement of 
that yesterday on the Senate side.
    Again, these can be complimentary efforts. If you look at 
the intelligence definition of the community, that in itself 
implies jurisdictional boundaries. I believe that any 
commission of this nature needs to look beyond those, much 
broader than that.
    Plus, my experience on commissions, and I have been on some 
actually for the CIA looking at issues of weapons of mass 
destruction prior to the presidential commission I was 
appointed to, there we had complete access to highly classified 
data. And the individuals on those commissions not only 
respected that, were experienced hands in dealing with 
classified information. And in the long term made 
recommendations that I think were helpful to the community as a 
whole.
    So again, they can be supportive, complimentary, but also 
with the experience can stand back and make an objective 
judgment at the end with regard to causality and concerns about 
both organization and efforts to prevent it in the future.
    Chairman Lieberman. Let me ask a final question in the time 
I have left. Mr. Augustine, your written testimony and what you 
delivered orally today urges us to make clear in the law the 
extent to which the work of the commission must be conducted in 
public view and can be conducted privately.
    My understanding is that existing law would allow a 
commission of this kind to hold closed hearings whenever it is 
dealing with classified information or information from law 
enforcement groups. And I gather that law governed Hart-Rudman 
and the Bremer Commission.
    I wonder if you, and then others if you wish, could reflect 
a bit on that or whether you think that we need to do something 
additional and specific in this proposed legislation, to 
protect the confidentiality of classified information?
    Mr. Augustine. It is an important and broad topic. My 
belief is that there is a shortfall in the current system in 
this regard. In the case at hand, I can well imagine a 
commission like this would like to hypothesize future threats 
and discuss them, to discuss vulnerabilities that we have. Some 
of these are truly hypothetical. It is quite different from 
having information on a specific threat of designing a specific 
weapon. I am talking about purely conjectural discussions that 
generally would not be covered by our laws.
    I would cite another example from recent experience. I 
served on the commission that reviewed the V-22 program in 
which, you will recall, 22 Marines died the year before last. 
One of the questions was how much of the problem was due to 
pilot error?
    So you are talking about fragmentary evidence, incomplete 
evidence, but it is very important. You need to be able to 
discuss something that can be very damaging to an individual or 
to a group or an organization. You need to be able to talk 
about it, but there is not enough factual evidence that you can 
really have a public discussion.
    We found it very inhibiting to be able to talk about issues 
like that in public, just because of the consequences on 
people--it had nothing to do with national security. It was 
human decency and the like.
    Chairman Lieberman. How about the experience that you had 
on the Bremer Commission, with regard to the authority that 
current law gives commissions to hold closed sessions when they 
are classified or law enforcement topics?
    Mr. Sonnenberg. To be frank, in terms of the Bremer 
Commission, we never had a public hearing.
    Chairman Lieberman. That eliminated the problem.
    Mr. Sonnenberg. That is not to say I understand the 
conflict between the openness of government and the necessity 
for secret, as Mr. Augustine has pointed out.
    We did it, for example, on the Secrecy Commission, which 
was Senator Moynihan and Senator Helms. That commission, we had 
one public hearing and that involved the subject of FOIA, which 
you would expect to have an opening hearing on.
    Now you might look at this in a different way. I understand 
the legislation is talking about a preliminary report in 6 
months and then another one to follow. You might think about 
having some public hearings at that other end, thereby 
eliminating the problem of free discussion, over and above 
classified----
    Chairman Lieberman. You mean after the preliminary report?
    Mr. Sonnenberg. I would think you might be able to do that. 
But remember what I said before, I am a little bit concerned, 
and that is why I want you to go to law enforcement and the 
intelligence community about the protection, and I am not being 
wild about this, about the protection of commissions. We are in 
a totally different era now and you will have to balance that.
    Now the second half might be the area where you might want 
to think about public hearings on specific subjects. You have 
them laid out and say all right, we are going to hold a public 
hearing. Because by then, after the preliminary report, it is 
pretty well known what the commission is doing, who they are. 
So I think you have to work on it a little bit.
    Chairman Lieberman. Professor Betts.
    Mr. Betts. I do not think the issue is the authority to 
hold closed hearings or to keep information secret. The issue 
is the general impression that is conveyed or the expectations 
about how much this is expected to be an exercise in opening up 
to the public. If the latter dominates the expectations, I 
think that would seriously compromise the work of the 
commission.
    Chairman Lieberman. You would say that would be a mistake?
    Mr. Betts. Yes, I think perhaps, as Maurice has suggested, 
emphasizing the public aspects of the enterprise in the later 
phase would make more sense. You would avoid a chilling effect 
on the sharing of information with the commission. You would 
avoid any conceivable problems, as unfortunately has happened 
in some cases.
    I remember many years ago, when Richard Helms was 
testifying at open hearings about ITT and Chile, and was asked 
whether the CIA had any covert operations. On the spur of the 
moment he decided to lie in order to protect secrecy and wound 
up having to go to trial over it.
    For all those reasons, I think it would be good to 
establish the presumption that for the most sensitive and most 
important aspects of this investigation, many of which will 
involve very sensitive classified information, that it is all 
going to be very closely held until whatever time the 
resolution is reached and the public phase can be emphasized.
    Chairman Lieberman. David, and then we will finish up with 
Norm Augustine.
    Mr. McCurdy. Mr. Chairman and Senators, I concur. And I 
know, to many colleagues, this is somewhat of a surprise. But 
on the commissions that I have dealt with, we never had public 
hearings. Of course, in the Intelligence Committee we only had 
one public hearing in all the time I was involved there over 9 
years.
    So I think it would be very helpful for a commission of 
this nature that would be enduring a lot of scrutiny to be able 
to work together in not only a secure environment, but also a 
less public environment. Because there is going to be a lot of 
information that needs to be shared among commissioners and the 
staff. And I think the presumption should be that it would not 
be held in the open.
    Chairman Lieberman. Interesting. Mr. Augustine.
    Mr. Augustine. I was just going to add that I think how you 
handle this depends very much on the specific circumstances. 
Years ago I chaired a commission that reviewed NASA as a whole 
during the period after the Challenger accident. We held all 
our meetings on television and it worked fine.
    I think one has to view three categories of information. 
One, that is clearly covered by national security legislation, 
and you can discuss in private with no problem. Everything else 
that you possibly can should be discussed in public. But I say 
there is one exception, a third group that is not sensitive by 
the definition of today's law but is certainly sensitive by the 
definition of today's world. Perhaps there should be a 
provision given to the members of the commission, which 
hopefully they will use only very selectively, by majority vote 
or by the chairman's decision, to deal with certain topics in 
private.
    Chairman Lieberman. That is very helpful. I appreciate, as 
I listen to the four of you, from your experience, that to get 
at the truth, which is what this is all about, of what might 
have been done to prevent the attacks of September 11, a lot of 
this is going to have to be in private.
    There are categories where you may want to do some things 
in public, as you just said. But the report will then stand on 
its merits. I thank you. Senator Torricelli.
    Senator Torricelli. Thank you, Mr. Chairman. I tell you, 
myself, while I think it is probably helpful to have one or two 
public sessions to give the country a view of what is expected 
and some insight into the discussions, because this is 
obviously a source of national anxiety while the report is 
being written and conducted.
    It certainly does not trouble me that most of this would be 
done privately. It is the final product in which we are 
interested in. I think we simply need to have enough of a 
public face to assure the public it is being done and being 
done properly because of the current state of unease in the 
Nation.
    I only had several questions really. First, in each of your 
experiences, the kind of people who should serve and where they 
should come from, this is obviously an enormous time 
commitment. It involves people who will have some expertise and 
background. It should also involve people who are not co-opted 
by their relationships with any of these institutions.
    But I wonder if you would talk about the mix. Specifically, 
some of these that involve members of Congress. It is always 
difficult for me to believe that a member of Congress, on 
something this intense, with a short time frame, has enough 
time do this while meeting other responsibilities. I would 
appreciate it if you would address that.
    And whether we should look for commissioners who can do 
this on a 6-month basis or a 1-year basis exclusively or almost 
exclusively. And then your experiences on the mix of 
personalities or experiences that these people should bring to 
a commission. I think that helps us answer how, indeed, we 
reconcile our legislation to get membership. I'll leave that to 
anybody.
    Mr. Augustine. I will be happy to start. The first 
suggestion is no zealots. No people who have made up their mind 
in advance or have taken a position----
    Chairman Lieberman. That is a tough one to write in a law, 
but it is a good idea.
    Mr. Augustine. But it is important. People who are willing 
to take an open mind, to learn, to change their mind, that is 
absolutely critical.
    The second is people who are willing to work together as a 
team and try to arrive at a reasonable consensus. Avoid people 
who have a single issue that they are fascinated by.
    And finally, with regard to your question, Senator, I think 
that to get people of the stature this commission would deserve 
and would require, it will be very hard to get people who could 
devote full time to it. And success is dependent on putting 
together an extremely good full-time staff. It does not have to 
be large, but it has to be very good. That means it has to have 
a good staff leader, chief of staff if you will.
    I think one has to call on the commissioners on a part-time 
basis. It is, frankly, hopeless to get people of the kind you 
want who are available full time.
    Senator Torricelli. I agree with that.
    How about, as we go forward now, please also address this 
question about how you do the balance between having people who 
have experience with these institutions or issues but are not 
people so identified with the institutions that are being 
examined that the commission loses credibility.
    Mr. Sonnenberg. First, I would add to Mr. Augustine's 
comment about the type of people. If full-time/part-time is the 
issue of getting the quality and the type of people you need, I 
doubt seriously you are going to find what you want full-time. 
You want these people who have had a depth of experience, 
knowledge of this material, and you are going to find them, 
unfortunately, on a part-time basis.
    Now about the stature, I believe that someone who has what 
I would call a rather deep general view of the subject becomes 
important. That is what you have staff for. You get all those 
experts in house--who have the abilities to examine specific 
issues.
    Your question again, Senator was, specifically you asked 
something just now?
    Senator Torricelli. I asked a variety of them, but I tend 
to do that.
    Mr. Sonnenberg. The last one.
    Senator Torricelli. The last one was this issue of how you 
balance that you want people with expertise that know these 
institutions, but you do not lose credibility of them being so 
identified with the institutions. Whether or not you have seen 
that as a problem before.
    Then I want people to come back to this issue of members of 
Congress as well, whether this has worked, who may have been 
members in the past.
    Mr. Sonnenberg. With regard to that, that is a double-edged 
sword. Obviously, people who are identified with a community, 
let's say, retirees maybe or people who have been out in the 
business or the legal world or wherever, they have something 
valuable to contribute. You are going to have to do that on a 
very selective basis.
    There are people, for example, who have been former agency 
and FBI personnel who are going to be extremely valuable on our 
commission. For example, on the Terrorism Commission, we had 
Jim Woolsey, and frankly he was quite good. In fact, he was 
excellent. We also had a fellow named John Lewis who had been 
at one time head of counterterrorism for the FBI. Exceedingly 
good.
    Now were they experts in a specific field? One could say 
so. Were they attached to an agency or bureau? Sure, by 
history. But I do not think that precludes them. As is pointed 
out, what you need really is an ability for all these people to 
get together.
    Now with regard to members of Congress, I served on the 
Commission for the Roll and Capabilities of the Intelligence 
Community. We had a Senator and a Congressman. Frankly, we had 
a Senator who never showed up until the day the report came 
out. On the other hand, we had a very involved Congressman by 
the name of Porter Goss, who is now Chairman of the House 
Intelligence Committee. He showed up to most meetings. But he 
had some expertise, in addition, to contribute to that 
particular committee.
    Now what I am saying is it all depends which member of 
Congress, or former member depending what they are doing, you 
put on.
    Mr. McCurdy. Mr. Chairman, I think the first criteria is 
that they need to be independent. They not only need to be 
independent thinkers, as I think Norm stated, they should also 
be independent of organization and somewhat--he said zealots, 
independent of ideology.
    There are some, and I think we have all had experience with 
this, there are some who lobby to get on commissions. And maybe 
one of the best criteria is someone who does not want to be on 
the commission. There are those who lobby to get on the 
commission because they have a single interest. It is their 
business to be involved in non-proliferation or whatever. 
Sometimes they are not as prone to work to develop consensus 
positions either.
    And so I think that is a judgment that has to be exercised 
by those making the appointments.
    With regard to time, it would be a very time-consuming 
activity. I do agree that the staff is the key there.
    With regard to Senators or members of the House, I also 
served on both types of commissions. And with all due respect 
to this institution, you are on a moment's notice and you have 
that beeper and it is a leash and it goes off constantly. There 
is always some interruption or someone trying to get a piece of 
your time. I think in some of these it is disruptive in a 
commission.
    I think it should be a private group as much as possible.
    And last, with regard to the issue of experience, I think 
you do not need--it is helpful to have the right mix. I think 
that one of the suggestions was maybe working with the 
leadership in a more consensus fashion. It is like the old 
baseball trading. You make sure that you have a shortstop and a 
third baseman, that you have someone who has experience in the 
intelligence community or law enforcement.
    Because we all spend time shaking our heads at acronyms and 
the language of specific areas. You do not have time for 
complete tutorials. So there has to be some knowledge there.
    And you often assign, in the commissions I have been 
involved in, Senator Specter and former Director Deutsch and 
others, they would actually assign two commissioners to go 
focus on specific issues. I focused on technology with regard 
to WMD. Someone else focused on the bioterrorism portion of it 
and biology. So again, it is nice to have that mix, aviation 
mix, and law enforcement mix.
    So you have to do an initial assessment of the scope of the 
commission and try to fill those as much as possible. And then 
you supplement it with the staff. You fill the holes with the 
staff. Having a good staff director is absolutely critical.
    Senator Torricelli. Given the desire of many institutions 
to protect themselves and their people, their reputations and 
their budget, it would be my belief that to do this without the 
ability to compel testimony and subpoena power with the force 
of law would be to make this a rather hollow exercise. We are 
not interested in simply providing cover for institutions, to 
provide comfort to the American people, but get genuine 
answers.
    Does anyone disagree with this notion that you have to have 
subpoena power put in this to make this a meaningful exercise?
    Mr. Betts. I think the ideal is to have the power but never 
have to use it, to have it in your pocket.
    Senator Torricelli. But nevertheless, it has to be given.
    Just for the historic basis of this, as we are going 
forward to argue with this, there are arguments about the 
sensitivity of sharing classified information with such a 
commission, given the sensitivity of the situation. I do not 
ever remember that being a problem when we were going through 
the debates about the MX missile on the commission, or the wars 
in Central America, or even our missile technology and the 
redesign of the Challenger. It is extraordinary to me that it 
is arising now.
    Do any of you remember there being problems of losses of 
classified information during those exercises that would give 
us pause now? Mr. Augustine.
    Mr. Augustine. No, I do not ever remember a problem of a 
loss of sensitive information from a commission of which I am 
aware. But that really was not the point that I, at least, was 
trying to make. I think the commission has to have full access 
to all information and I think they will protect it if we pick 
commissioners properly.
    Senator Torricelli. Actually, I was not responding to your 
point. I was responding to people down the street here.
    Mr. Augustine. My concern is that there is information that 
is not covered by existing laws that we still do not want 
people living in caves to hear. That is the part I am talking 
about. I do not worry about the commissioners. They should have 
access to everything that is available.
    Senator Torricelli. But I did not want, rhetorically, if 
Senator Lieberman and I take this to the Floor, people are 
going to rise and say well, to have this commission means 
sharing this classified information with commissioners and this 
involves certain risk. In my experience of watching this on 
everything from the defense of our Nation with strategic 
weapons to actual policy issues in combat with people on the 
ground, I never remember that this was ever a problem with a 
commission. Which raises whether that is an excuse or a reason 
not to have a commission.
    Mr. McCurdy. Again, the mix of the commissioners is vital 
there. My experience is, both in the Intelligence Committees in 
the Congress, where we dealt with highly compartmented--and 
there were times, quite frankly, and it may be a model even in 
commissions. There were times that only the chair and the 
ranking member were alerted to certain things with regard to 
source and methods.
    But if there is proper attention paid to the appointment of 
people, such as my colleagues here who I have the utmost 
respect for, most have held tickets before, classification and 
access, and probably maintained them. It would be helpful to 
have someone who is current in some of those, so you do not 
have to go through lengthy background checks.
    I am on the advisory board for the Department of Energy in 
Nuclear Matters, with regard to the former Soviet Union. Those 
are areas, and again, people do not go out and advertise those. 
But I think the commissioners and the experience again, there 
is a wealth of resource out there in the private sector you can 
draw upon, people who are willing to spend the time, sacrifice 
the time to do this appropriately.
    Mr. Sonnenberg. In all the commissions I have served on, 
three in the intelligence, and the President's Foreign 
Intelligence Advisory Board for 8 years, we never had a leak. 
What was interesting is once I had the National Security 
Advisor to the President come in and say you know, this is the 
only place around here where we have never had a leak. Now, 
having said that, I would not consider that important.
    However, we did do one thing which would be of interest. In 
the National Commission on Terrorism, we looked at findings. 
That was relegated, the permission to look at those findings 
was with the chairman and the vice chairman. So even in a 
situation where you have this top priority classified material, 
higher than top secret, you can then divide that up with the 
chairman, vice chairman, whoever. That is how you prevent 
leaks.
    In that case, I do not think there would have been a leak 
if the member had seen it because we all knew who the members 
were, but there is a way of handling that.
    Senator Torricelli. So the panel, in any case, is confident 
that we can argue with some certainty that the history of these 
commissions is that indeed classified information has been 
protected and it has never previously been raised as a problem 
in Democratic or Republican administrations regarding any of 
these issues. And I think that is important for us.
    I want to thank the panel. Mr. Chairman, thank you. This 
has been a very useful exercise.
    Chairman Lieberman. Thank you, Senator Torricelli, for your 
substantial contribution to the discussion. Thanks to the four 
witnesses for your time and for the help that you have given 
and some of the details of how this might work.
    I must say, hearing your testimony reinforces my belief 
that the Nation would benefit from such a commission. Certainly 
the Nation's future security would benefit from such a 
commission.
    This is not going to be an easy road ahead for this 
legislatively, both because though we talk about complementing 
some of the committees of Congress, there is a natural 
sensitivity about turf here. And because, at least for now, the 
administration appears to be opposed to this. But I do think 
there is no substitute for the most aggressive pursuit of the 
truth here. And I know that Senator McCain feels this way.
    I look forward to working with Senator Torricelli, Senator 
Grassley and others to advance this idea and, in the first 
instance, to move as quickly as seems appropriate when we are 
ready to mark this bill up before our Governmental Affairs 
Committee.
    Mr. Sonnenberg. May I make one last comment? The irony of 
this is the administration, if they participate in this 
commission, might find out that it is more helpful than not.
    Chairman Lieberman. Exactly my feeling, that this is a 
commission, as others, that I see working quite closely with 
the administration, not in an adversarial or confrontational 
relationship. And of course, going to the members, that is 
exactly the tone that you would hope, or I would hope, that the 
chair or the members of the commission would create right at 
the outset in their relations with the administration, even 
while they are involved in a very aggressive pursuit of the 
truth.
    I thank all of you for your continuing public service, 
whether in or outside of the public service directly.
    I am going to leave the record of the hearing open for 2 
weeks, in case my colleagues want to either submit statements 
or perhaps even submit questions to all of you. But for now, 
thank you.
    The hearing is adjourned.
    [Whereupon, at 12:01 p.m., the hearing was adjourned, 
subject to the call of the chair.]


                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR BUNNING


    Thank you, Mr. Chairman.
    The attacks on September 11 painfully illustrated weaknesses in 
American national security. The fact that terrorists were able to 
hijack four American planes with box cutters, and then turn those 
planes into weapons is almost incomprehensible.
    I am confident that America will recover from these cowardly acts. 
However, never again should we be caught off guard.
    Major changes need to be made, including tightening security at our 
borders and ports, improving our intelligence gathering operations and 
strengthening our military.
    We are moving in the right direction. The President has established 
the Office of Homeland Security, which is responsible for coordinating 
domestic security among the Federal agencies.
    The administration has also requested additional money for our 
military in 2003, and Congress has held numerous hearings concerning 
the September attacks.
    While we will never be able to completely insulate ourselves from 
another terrorist attack, we can and will take the necessary steps to 
increase our readiness, fortify our military and protect our citizens.
    I look forward to hearing from our witnesses today about their 
experiences on past commissions.
    Thank you, Mr. Chairman.

    [GRAPHIC] [TIFF OMITTED] T8617.001
    
    [GRAPHIC] [TIFF OMITTED] T8617.002
    
    [GRAPHIC] [TIFF OMITTED] T8617.003
    
    [GRAPHIC] [TIFF OMITTED] T8617.004
    
    [GRAPHIC] [TIFF OMITTED] T8617.005
    
    [GRAPHIC] [TIFF OMITTED] T8617.006
    
    [GRAPHIC] [TIFF OMITTED] T8617.007
    
    [GRAPHIC] [TIFF OMITTED] T8617.008
    
    [GRAPHIC] [TIFF OMITTED] T8617.009
    
    [GRAPHIC] [TIFF OMITTED] T8617.010
    
    [GRAPHIC] [TIFF OMITTED] T8617.011
    
    [GRAPHIC] [TIFF OMITTED] T8617.012
    
    [GRAPHIC] [TIFF OMITTED] T8617.013
    
    [GRAPHIC] [TIFF OMITTED] T8617.014
    
    [GRAPHIC] [TIFF OMITTED] T8617.015
    
    [GRAPHIC] [TIFF OMITTED] T8617.016
    
    [GRAPHIC] [TIFF OMITTED] T8617.017
    
    [GRAPHIC] [TIFF OMITTED] T8617.018
    
    [GRAPHIC] [TIFF OMITTED] T8617.019
    
    [GRAPHIC] [TIFF OMITTED] T8617.020
    
    [GRAPHIC] [TIFF OMITTED] T8617.021
    
    [GRAPHIC] [TIFF OMITTED] T8617.022
    
    [GRAPHIC] [TIFF OMITTED] T8617.023
    
    [GRAPHIC] [TIFF OMITTED] T8617.024
    
    [GRAPHIC] [TIFF OMITTED] T8617.025
    
    [GRAPHIC] [TIFF OMITTED] T8617.026
    
    [GRAPHIC] [TIFF OMITTED] T8617.027
    
    [GRAPHIC] [TIFF OMITTED] T8617.028
    
    [GRAPHIC] [TIFF OMITTED] T8617.029
    
    [GRAPHIC] [TIFF OMITTED] T8617.030
    
    [GRAPHIC] [TIFF OMITTED] T8617.031
    
    [GRAPHIC] [TIFF OMITTED] T8617.032
    
    [GRAPHIC] [TIFF OMITTED] T8617.033
    
    [GRAPHIC] [TIFF OMITTED] T8617.034
    
    [GRAPHIC] [TIFF OMITTED] T8617.035
    
    [GRAPHIC] [TIFF OMITTED] T8617.036
    
    [GRAPHIC] [TIFF OMITTED] T8617.037
    
    [GRAPHIC] [TIFF OMITTED] T8617.038
    
    [GRAPHIC] [TIFF OMITTED] T8617.039
    
    [GRAPHIC] [TIFF OMITTED] T8617.040
    
    [GRAPHIC] [TIFF OMITTED] T8617.041
    
    [GRAPHIC] [TIFF OMITTED] T8617.042
    

</pre></body></html>
